W                                                                  September 16, 1999


TO:              M/Associate Administrator for Space Flight
                 JSC/AA/Director, Lyndon B. Johnson Space Center

FROM:            W/Assistant Inspector General for Auditing

SUBJECT:         Final Report on the Audit of Allied-Signal Subcontract Management
                 Assignment Number A-HA-98-039
                 Report Number IG-99-042


The subject final report is provided for your use and comment. Please refer to the Executive
Summary for the overall audit results. Our evaluation of your response is incorporated into
the body of the report. Because management does not have complete control over the timing
of the corrective actions planned for Recommendations 2 and 3, management did not specify
estimated completion dates for the recommended corrective actions. Recommendations 1, 2,
and 3 will remain open for reporting purposes until corrective actions are completed. Please
notify us when actions have been completed on the recommendations, including the extent of
testing performed to ensure corrective actions are effective.

If you have questions concerning the report, please contact Mr. Lorne A. Dear, Program
Director for Procurement Audits, at (818) 354-3360; Ms. Nora Thompson, Audit Program
Manager, at (757) 864-3268; or Mr. Douglas Orton, Auditor-in-Charge, at (281) 244-1159.
We appreciate the courtesies extended to the audit staff. See Appendix C for the final report
distribution.



[original signed by]
Russell A. Rau

Enclosure
cc:
AO/Chief Information Officer
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
JM/Director, Management Assessment Division
bcc:
JPL/W/Director, Procurement Audits
JSC/BD5/Audit Liaison Representative
JSC/W/Auditor-in-Charge
LaRC/W/Program Manager, Procurement
SSC/W/Staff Auditor
                                                           IG-99-042




AUDIT
                           ALLIED-SIGNAL SUBCONTRACT MANAGEMENT
REPORT
                                      September 16, 1999




                            OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this audit report, contact the Assistant Inspector General for
Auditing at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudtis.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

               Assistant Inspector General for Auditing
               NASA Headquarters
               Code W, Room 8V69
               300 E Street, SW
               Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or
write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington,
DC 20026. The identity of each writer and caller can be kept confidential, upon request, to
the extent permitted by law.


Acronyms

DCMC           Defense Contract Management Command
FAR            Federal Acquisition Regulation
Contents                                             __________________

Executive Summary, i

Introduction, 1

Finding and Recommendations, 2

     Supporting Documentation for Noncompetitive Procurements, 2

Appendix A – Objectives, Scope, and Methodology, 6

Appendix B – Management’s Response, 8

Appendix C – Report Distribution, 10
                                 NASA Office of Inspector General

IG-99-042                                                                             September 16, 1999
 AHA-98-039
                             Allied-Signal Subcontract Management

                                           Executive Summary

Background. Under NASA contract NAS9-95682, Allied-Signal Technical Services
Corporation (Allied-Signal) provides testing, evaluation, and maintenance services to the
Johnson Space Center’s White Sands Test Facility in Las Cruces, New Mexico. The
cost-plus-award-fee contract began on February 1, 1994, and ran through April 30, 1999.
Negotiated costs total about $200.1 million.1 NASA also awarded Allied-Signal the follow-
on contract (May 1, 1999, through April 30, 2001) with estimated base costs of about $45
million. Options could extend the follow-on contract through April 2006.

Allied-Signal has a Government-approved purchasing system and the authority to award
subcontracts. The contract requires Allied-Signal to subcontract on a competitive basis to the
maximum practical extent. The total value of subcontracts awarded under the contract as of
April 30, 1999, was about $36 million, or about 18 percent of total negotiated costs. For
subcontracts valued at more than $25,000, Allied-Signal must obtain written consent to
subcontract from the NASA contracting office before issuing the subcontract.


Objectives. The overall audit objective was to determine whether Allied-Signal appropriately
awarded and managed subcontracting activities on NASA’s contract with Allied-Signal.
Additional details on the objectives, scope, and methodology are in Appendix A.


Results of Audit. Overall, Allied-Signal officials appropriately awarded and managed
subcontracting activities on NASA contract NAS9-95682. NASA officials incorporated
required contract clauses into the prime contract, and Allied-Signal officials incorporated the
clauses into subcontracts. Also, Allied-Signal officials appropriately obtained consents-to-
subcontract for subcontracts valued at more than $25,000 as required by the contract.
However, Allied-Signal did not maintain supporting documentation for three out of the four
justifications for noncompetitive procurements that we reviewed. As a result, NASA has
reduced assurance that the contractor maximized the competition of its subcontracts.


Summary of Recommendations. Management should direct Allied-Signal to maintain
adequate documentation to support justifications for noncompetitive procurements.



1
    The amount consists of $192.2 million in estimated costs and $7.9 million in award fees.
Additionally, management should ask the NASA Contracting Officer and the Defense
Contract Management Command (DCMC) to include reviews for supporting documentation
in their next purchasing system reviews.


Management’s Response. Management concurred with each recommendation. The
complete text of the response is in Appendix B. We consider management’s comments
responsive.




                                           ii
Introduction

Contract NAS9-95682 gives Allied-Signal authority to subcontract for supplies and services
and establishes requirements for that authority.

NASA ensures oversight of contractor management of subcontracts in three ways. First, the
DCMC conducts a periodic review of the contractor’s purchasing system. A review of the
contractor's purchasing system evaluates the efficiency and effectiveness with which the
contractor spends Government funds and complies with Government subcontracting policy.
The review provides the administrative contracting officer a basis for granting, withholding,
or withdrawing approval of the contractor’s purchasing system. Second, the administrative
contracting officer maintains surveillance of the purchasing program. The administrative
contracting officer for Allied-Signal is a DCMC official, located in Towson, Maryland. Based
on an April 1998 purchasing system review, the administrative contracting officer approved
Allied-Signal’s procurement system on August 21, 1998. Third, the NASA contracting
officer must maintain surveillance sufficient to ensure that contractor purchasing efforts, in
support of NASA contracts, are accomplished appropriately and protect Agency interests. The
NASA contracting officer conducts surveillance by performing subcontract consent reviews
and periodic reviews of contractor purchasing records and by annually reporting results to the
administrative contracting officer. The annual report must designate the types and quantities
of deficiencies the contracting officer identified in the reviews, the need for special reviews,
and the recommended areas of emphasis for future DCMC purchasing system reviews.
Finding and Recommendations_____________________________________

Supporting Documentation for Noncompetitive Procurements
For three out of the four noncompetitive procurements we examined, Allied-Signal
purchasing department buyers did not maintain documentation to support justifications for
noncompetitive procurements. This condition occurred because Allied-Signal purchasing
policy does not require Allied-Signal personnel to keep supporting documentation.
Additionally, Government oversight reviews of the contractor’s procurement system did not
include examinations of supporting documentation for noncompetitive procurements. As a
result, NASA has reduced assurance that the contractor maximized the competition of its
subcontracts.


Federal Acquisition Regulation, NASA, and Allied-Signal Requirements

Federal Acquisition Regulation (FAR), Part 10, “Market Research,” requires Government
agencies to document the results of market research in a manner appropriate to the size and
complexity of the acquisition. To be an effective management control, the documentation
should be available and easily accessible for examination.

NASA FAR Supplement, Section 1844, requires the NASA contracting officer to maintain a
sufficient level of surveillance to ensure that contractor purchasing efforts in support of
NASA contracts are accomplished in an appropriate manner. The surveillance is to be
accomplished primarily through performance of subcontract consent reviews,2 but may
include other methods, including periodic reviews of contractor purchasing records. The
NASA FAR Supplement does not delineate specific procedures the contracting officer should
perform as part of the surveillance review.

To ensure maximum practical competition in subcontract awards, Allied-Signal implemented
purchasing policy 202.1W, “Noncompetitive Procurement.” The policy requires Allied-
Signal personnel, when recommending a noncompetitive procurement to a particular vendor,
to prepare a written justification demonstrating the vendor’s unique capability. The
justification is to describe the steps taken that lead to the conclusion that only a particular
source or product can meet the requirement.


Justifications for Noncompetitive Procurements

For three out of the four noncompetitive procurements we reviewed, purchasing department
files did not contain documentation that described the marketing survey or that supported
statements in the justifications for noncompetitive procurements. For two of the four
procurements, the justifications stated that the use of another vendor’s product would result in

2
    The contracting officer must review and consent to Allied-Signal subcontracts costing more than $25,000.


                                                         2
additional costs of $15,000 and $10,000.3 However, purchasing department files did not
document how Allied-Signal personnel determined the additional costs. Allied-Signal
officials could not provide supporting documentation to the audit team. For the third
noncompetitive procurement, Allied-Signal personnel requesting the purchase stated that they
performed a market survey and obtained quotes from six manufacturers for a machining
center.4 The purchasing department file contained copies of some requests for quotes, written
quotes from the six vendors, and an analysis that concluded machining centers proposed by
five of the vendors did not meet the required specifications. However, the purchasing
department file did not contain documentation on the methods Allied-Signal personnel used to
develop specifications for the machining center or the date Allied-Signal personnel developed
the specifications.


Allied-Signal Policy

Allied-Signal purchasing policy 202.1W does not specifically require Allied-Signal personnel
to maintain documentation supporting the justifications for noncompetitive procurements. In
addition, the policy does not describe the types of documentation and information that Allied-
Signal personnel requesting purchases should develop to support the justifications.


Reviews by DCMC and the NASA Contracting Officer

Prior DCMC and NASA contracting officer reviews of Allied-Signal’s purchasing system
were not designed for detailed examinations of the contractor’s supporting documentation for
justifications. In April 1998, DCMC reviewed the Allied-Signal purchasing system and found
that Allied-Signal awarded only 12 percent of the total dollar value of sampled subcontracts
on a competitive basis. DCMC’s report on the review states that Allied-Signal had prepared
adequate written justifications for 95 percent of sampled noncompetitive procurements, but
DCMC did not examine documentation supporting the justifications.

In September 1998, the contracting officer completed the most recent surveillance review.
The review included 10 purchase orders each valued at less than $25,000 and 13 purchase
orders each valued at more than $25,000. The contracting officer determined the reviewed
purchase orders had been adequately completed. As part of the surveillance review, the
NASA contracting officer examined documentation in the purchasing department files for the
selected purchase orders. However, the surveillance review did not examine documentation
supporting the justifications because the documentation is not included in the purchasing
department files.
3
  Justification for Purchase Order 774689 states, “If another machine was purchased, the Government would have
to spend approximately $15,000 in tooling cost for the changeover.” Justification for Purchase Order 791029
states, “The MC-70 is not a water-based product and can only be applied during warm months and would also
cost approximately $10,000 more.”
4
 Justification for Purchase Order 784609 states, “Six manufacturers provided the specifications for seven
different machines.”


                                                       3
Effect on Competition and Oversight Reviews

Supporting documentation for justifications of noncompetitive procurements is needed to
provide NASA assurance of adequate competition in subcontract awards and to facilitate
oversight reviews. Supporting documentation shows evidence of market survey steps and
vendor responses. With adequate supporting documentation, NASA has enhanced assurance
that Allied-Signal awarded subcontracts to the best available source, despite the absence of
competition. Also, Government personnel performing oversight reviews can better assess the
justification of a noncompetitive procurement. DCMC and NASA contracting officer
oversight reviews should selectively test documentation supporting the written justifications
for noncompetitive procurements.


Recommendations for Corrective Action

The Director, Johnson Space Center, should require the NASA contracting officer to:

        1. Direct Allied-Signal to maintain adequate documentation in support of
justifications for noncompetitive procurements, including clear and complete
descriptions of the methodologies used in the performance of market surveys.

      2. Include a review of documentation supporting justifications for
noncompetitive procurements in the next contracting officer surveillance review.

      3. Request DCMC to include an evaluation of documentation supporting
noncompetitive procurement justifications in the next review of Allied-Signal’s
purchasing system at White Sands Test Facility.


Management’s Response

Management concurred with the findings and recommendations. The contracting officer
orally instructed Allied-Signal to reevaluate and modify its policy of not requiring personnel
to maintain supporting documentation. Additionally, the contracting officer will include a
review of the supporting documentation prior to granting subcontracting consent on all
purchase orders costing more than $25,000, and also coordinate with the cognizant DCMC
representative to ensure that the next purchasing system review includes an audit of
supporting documentation.


Evaluation of Management’s Response

The actions planned by management are responsive to the recommendations. After we
received management’s comments, JSC management stated that within a month of issuance of
the final audit report, the contracting officer would issue a written instruction for Allied-


                                               4
Signal to maintain supporting documentation. Management also stated that DCMC’s next
purchasing system review on Allied-Signal is tentatively planned for calendar year 2001.
Because the review will not be conducted for another 2 years, the contracting officer will wait
until then to request that the review include an evaluation of supporting documentation. The
recommendations are resolved but will remain undispositioned and open until agreed-to
corrective actions are completed.




                                               5
           Appendix A. Objectives, Scope, and Methodology
________________________________________________________________
_

Objectives

The overall audit objective was to determine whether subcontracting activities on selected
NASA prime contracts were appropriately awarded and managed. Specific objectives were to
determine whether:

    •   NASA officials incorporated required contract clauses into the prime contract and
        whether contractor officials, in turn, incorporated the clauses into subcontracts.

    •   Contractor officials properly obtained and required consents to subcontract.

    •   Allied-Signal officials ensured that subcontracts were competed to the maximum
        extent possible.


Scope

The audit scope considered subcontract awards for the period January 1996 through May
1998. During the period, Allied-Signal had 200 total subcontract awards valued at
$6.9 million. We selected a random sample of 31 subcontracts valued at $3 million. The
random sample included 13 competitively awarded subcontracts totaling $1.4 million and 18
sole-source subcontracts totaling $1.6 million.


Methodology

For our first objective, we judgmentally selected required clauses and reviewed prime contract
documents for those clauses. For the second objective, we compared consent-to-subcontract
documents with subcontract dates. The comparison included documents for the period
February 1996 through May 1998. For the third objective, we reviewed sample subcontract
file documentation, interviewed Allied-Signal contractor and subcontractor personnel, and
compared solicitation due dates to actual receipt dates.


Management Controls Reviewed

The audit tested management controls in the solicitation and award of subcontracts. We
considered management controls to be adequate except for documentation to support the
justification of noncompetitive procurements as discussed in the finding.



                                              6
7
Appendix A
___________________________________________________________________________

Computer-Processed Data

We obtained computer-processed data on subcontract awards and tested the data by
(1) comparing data to source documents for the sampled subcontracts and (2) reconciling
computer totals with other records and documents. The tests showed that the computer-
processed data were sufficiently reliable to be used in meeting the audit objectives.


Audit Field Work

We conducted audit field work from July 1998 through May 1999 at Johnson Space Center
and the White Sands Test Facility and at Allied-Signal subcontractor locations in Texas, New
Mexico, and Arizona. We performed the audit in accordance with generally accepted
government auditing standards.




                                              8
Appendix B. Management’s Response




                9
     Appendix B




10
                  Appendix C. Report Distribution
________________________________________________________________
_


National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
AO/Chief Information Officer
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight

NASA Centers

Director, Lyndon B. Johnson Space Center
Chief Counsel, John F. Kennedy Space Center
Director, White Sands Test Facility

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office of
   Management and Budget
Associate Director, National Security and International Affairs Division, Defense Acquisitions
   Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs



                                              11
                                                                               Appendix C


Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees (Cont.)

House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                             12
Major Contributors to the Report



Lorne A. Dear, Program Director, Procurement Audits

Nora E. Thompson, Audit Program Manager

Douglas Orton, Auditor-in-Charge

Melody C. Coston, Team Auditor

Nancy C. Cipolla, Report Process Manager

Christina Head, Program Assistant
